ig i ma uvur\ i

ug tAA gvuiM

037a
APPENDIX G

RECEIVED
APR 09 2018

SYM

eFILED
APR 09 2018

WILLIAM J. MOONEY,
Petitioner,
ELECTRONICALLY FILED
v.

Docket No.

2429-18

COMMISSIONER OF INTERNAL REVENUE,
Respondent

RESPONDENT'S MOTION TO DISMISS FOR LACK OF
JURISDICTION AND TO IMPOSE A PENALTY UNDER I.R.C. 6673.

CERTIFICATE OF SERVICE

BY^fexLERK

038a

UNITED STATES TAX COURT
WASHINGTON, DC 20217

WILLIAM J. MOONEY,

)
)

Petitioner,

)
)

v.

) Docket No. 2429-18.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)

ORDER OF DISMISSAL FOR LACK OF JURISDICTION
On April 9,2018, respondent filed a Motion To Dismiss for Lack of Jurisdiction and To
Impose a Penalty under l.R.C. section 6673 on the ground that no notice of deficiency was issued
to petitioner for the taxable years 1990 through 2017, within 150 days of the filing of this
petition, that would permit petitioner to invoke the Court’s jurisdiction; and on the ground that
no notice of determination was issued to petitioner for the taxable years 1990 through 2017,
within 30 days of the filing of this petition, that would permit petitioner to invoke the Court’s
jurisdiction. On April 25, 2018, petitioner filed a Response to the motion to dismiss and on May
8,2018, petitioner filed First Supplement to Response to motion to dismiss. Both petitioner’s
Response and First Supplement contained only a copy of the petition filed on February 5,2018,
to commence this case. The record in this case does not contain any notice of deficiency for
taxable years 1990 through 2017 or any notice of determination pertaining to taxable years 1990
through 2017. Consequently, this case must be dismissed for lack ofjurisdiction.
Respondent has also moved for the imposition of a penalty under l.R.C. section 6673
against petitioner, but we will not impose such a penalty against petitioner today. Petitioner is
strongly warned, however, that if petitioner should advance frivolous or groundless arguments to
this Court in the future, the Court may impose a penalty of up to $25,000.
Upon due consideration, it is
ORDERED that respondent’s above-described Motion, as supplemented, is granted in
that this case is dismissed for lack ofjurisdiction.

<2-

Maurice B/Foley
Chief Judge
ENTERED:

ggaSSSsSi

JUL 20 2018

SERVED Jul 20 2018

BY;

DEPUTY CLERK

CLERK

067a
APPENDIX M
Mooney v. United States, Not Reported in Fed.Cl. (2019)

2019 WL 4052488
UNPUBLISHED
United States Court of Federal Claims.

William Joseph MOONEY and Joni
Therese Mooney, Plaintiffs,
v.

The UNITED STATES, Defendant.
No. 19-987C
(Filed: August 27,2019)

Pro Se Complaint; Sua Sponte Dismissal for Lack of
Subject Matter Jurisdiction, RCFC 12(h)(3).

ORDER
PATRICIA E. CAMPBELL-SMITH, Judge
*1 Plaintiffs William Joseph Mooney and Joni Therese
Mooney filed a complaint with the court on July 9, 2019.
See ECF No. 1. Also pending before the court are: (1)
plaintiffs’ motion for an expedited stay of judgment and
stay of eviction, ECF No. 4; (2) plaintiffs’ motion for an
extension of time to file their reply in support of the
motion for an expedited stay of judgment, ECF No. 7; and
(3) plaintiffs’ expedited motion on standing, ECF No, 8,
Because the court lacks subject matter jurisdiction over
plaintiffs’ claims, the court must dismiss this case sua
sponte pursuant to Rule 12(h)(3) of the Rules of the
United States Court of Federal Claims (RCFC). See
RCFC 12(h)(3) (“If the court determines at any time that
it lacks subject-matter jurisdiction, the court must dismiss
the action.”). The court’s jurisdictional analysis is set
forth below.

I. Background
Plaintiffs’ complaint is 122 pages in length, with
attachments that exceed 500 pages. See ECF No. 1, The

court will summarize the allegations therein to the extent
that they are relevant to determining whether this court
has jurisdiction to hear this case. Plaintiffs’ claims appear
to be a collateral attack on court proceedings before the
United States District Court for the District of Minnesota.
Plaintiffs allege that “NELSON, PAHL, and BRISBOIS
and different agents of the United States of America and
of the United States lied to” them. See id at 13. The
referenced individuals were involved with the district
court case brought against plaintiffs by the Department of
Justice: Judge Susan Richard Nelson and Magistrate
Judge Leo I. Brisbois presided over the district court case,
and Michael R. Pahl, represented the Tax Division of the
United States Department of Justice on the case. See ECF
No. 1-7 at 24 (docket sheet for district court case).
The government’s complaint was filed against plaintiffs
in the district court “to reduce federal tax and penalty
assessments to judgment and enforce federal tax liens”
against plaintiffs’ property located in the District of
Minnesota. See United States v. Mooney, et al.. Case No.
16-2547, ECF No. 1. Judge Nelson mled against
plaintiffs, granting the government’s motion for summary
judgment and directing a monetary payment from
plaintiffs for federal income tax debts and frivolous-filing
penalties, along with authorizing the sale of plaintiffs
property to satisfy these outstanding federal income tax
liabilities. See id, ECF No. 151. Plaintiffs then filed a
motion to dismiss and motion to vacate judgment. See id..
ECF No. 157. On February 6, 2019, the district court
denied plaintiffs’ motion to dismiss and motion to vacate
judgment, and ordered the authorization of the sale of
plaintiffs’ property. See id. ECF Nos. 171, 172.
Plaintiffs appealed the district court’s decision to the
United States Court of Appeals for the Eighth Circuit. See
id., ECF No. 192. On May 13, 2019, plaintiffs filed a
“Motion to Withdraw and Terminate this Appeal
Expeditiously” in the Eighth Circuit. See United States v.
Mooney, et al., Case No. 19-1533 (8th Circuit) (docketed
as a motion to dismiss case). Plaintiffs’ motion to
withdraw states that “they are ready now to also file in the
United States federal Court of Claims but have discovered
... the United States Federal Court of Claims would
dismiss their New Case as the Appeal that was filed into
the 8th Circuit is considered a case ‘pending’ under 28
U.S.C, § 1500 precluding filing into the United States
Federal Court of Claims.” See id at 1. On May 15, 2019,
the Eighth Circuit granted plaintiffs’ motion to dismiss
their appeal. See United States v. Mooney, et al.. Case
No. 16-2547, ECF No. 195. The Eighth Circuit’s mandate
was issued and entered on the district court’s docket the
same day. See id., ECF No. 196.
*2 The complaint before this court notes that plaintiffs
“terminated the ‘Appeal’ to the 8th Circuit upon

WE5TLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

068a
discovering they two different venues was not allowed,”
presumably in favor of the case now at bar. ECF No. 1 at
12. Plaintiffs allege that “[tjhey denied the Mooneys
access to a bona fide Court of the United State arising
under Article III Sections one and two,” Id at 13.
Although “they” as used in this sentence is not clearly
defined, the allegations seem to reflect plaintiffs’ claim
that they were denied access to the courts as a result of the
lies told to plaintiffs by Judge Nelson, Magistrate Judge
Brisbois, and Mr. Pahl. See id. Plaintiffs also accuse
Judge Nelson and Mr. Pahl of misconduct in the course of
the district court litigation. See id at 12 (claiming that
“PAHL working with NELSON are guilty of ‘Spoliation
of evidence’ ”). And plaintiffs further allege that the
government improperly took their property through
proceedings in the “faux Article III Courts.” See id. at 1314.
Plaintiffs then write, in detail, about issues such as the
nature of the courts established by Article III of the
Constitution of the United States, the sovereignty of
individuals in this country, and tax policy, among other
topics. See generally id. In the course of this extended
discussion, plaintiffs refer to various constitutional rights,
see, e.g.. id. at 23 (referencing the Thirteenth and
Fourteenth Amendments); id at 26 (referencing the
Seventeenth Amendment); ]d at 33 (referencing the
Sixteenth Amendment), as well as torts allegedly
committed by the Internal Revenue Service and the State
of Minnesota, id. at 119 (alleging fraud).

II. Legal Standards

A. Pro Se Litigants
The court acknowledges that pro se plaintiffs are not
expected to frame issues with the precision of a common
law pleading. Roche v. U.S. Postal Serv.. 828 F.2d 1555,
1558 (Fed. Cir. 1987), Therefore, plaintiffs complaint
has been reviewed carefully to ascertain whether, given
the most favorable reading, it supports jurisdiction in this
court.

B. Jurisdiction
“A court may and should raise the question of its
jurisdiction sua sponte at any time it appears in doubt.”
Arctic Corner. Inc, v. United States. 845 F.2d 999, 1000
(Fed. Cir. 1988) (citation omitted). The Tucker Act
delineates this court’s jurisdiction. 28 U.S.C. § 1491
(2012). That statute “confers jurisdiction upon the Court

of Federal Claims over the specified categories of actions
brought against the United States.” Fisher v. United
States. 402 F.3d 1167, 1172 (Fed. Cir. 2005) fen banc)
(citations omitted). These include money damages claims
against the federal government founded upon the
Constitution, an act of Congress, a regulation
promulgated by an executive department, any express or
implied contract with the United States, or any claim for
liquidated or unliquidated damages in cases not sounding
in tort. Id (citing 28 U.S.C. § 1491(a)(1)).

III. Analysis

A. Lack of Subject Matter Jurisdiction
As described above, the gravamen of this complaint is
plaintiffs’ dissatisfaction with the proceedings in the
United States District Court for the District of Minnesota.
The Tucker Act, however, does not give this court
jurisdiction to consider the merits of a collateral attack on
those proceedings. See 28 U.S.C. § 1491(a); see, e.g..
Shinnecock Indian Nation v. United States. 782 F.3d
1345, 1352 (Fed. Cir. 2015) (“Binding precedent
establishes that the Court of Federal Claims has no
jurisdiction to review the merits of a decision rendered by
a federal district court.”); Vereda. Ltda. v. United States.
271 F.3d 1367, 1375 (Fed. Cir. 2001) (“The Court of
Federal Claims ‘does not have jurisdiction to review the
decisions of district courts.’ ”) (quoting Joshua v. United
States. 17 F.3d 378, 380 (Fed. Cir. 1994)). See also
Allustiarte v. United States. 256 F.3d 1349, 1351-52 (Fed.
Cir. 2001) (holding that the Court of Federal Claims
lacked jurisdiction to adjudicate a takings claim based on
“an allegedly improper action by a bankruptcy trustee that
was approved by a Ninth Circuit bankruptcy court”). In
order to challenge proceedings in a federal district court, a
plaintiff must rely on “the statutorily defined appellate
process.” Shinnecock. 782 F.3d at 1353 (citation omitted).
*3 To the extent that plaintiffs intend to allege that the
actions of Judge Nelson, Magistrate Judge Brisbois, or
Mr. Pahl violated their constitutional rights, jurisdiction is
likewise lacking in this forum. It is well settled that
violations of a plaintiffs constitutional rights by a federal
official do not fall within this court’s jurisdiction. Brown
v. United States. 105 F.3d 621, 624 (Fed. Cir. 1997).
And finally, this court cannot consider any claims
sounding in tort. See 28 U.S.C. § 1491(a)(1) (limiting this
court’s jurisdiction to “cases not sounding in tort”).
Because plaintiffs’ allegation of fraud is tortious in
nature, this court is without authority to consider it. See
Kant v. United States. 123 Fed. Cl. 614, 616-17 (2015)
(declining to exercise jurisdiction over a fraud claim

WfSTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works,

2

069a
because it sounded in tort); Brown. 105 F.3d at 623-624.
For these reasons, the court lacks jurisdiction over
plaintiffs’ claims, and their suit must be dismissed. RCFC
12(h)(3).

B. Transfer
Because plaintiffs’ complaint is not within this court’s
jurisdiction, the court considers whether transfer to
another federal court is appropriate. Transfer of cases
from this court to a district court is governed by 28 U.S.C.
§ 1631 (2012), which states in relevant part, as follows:
Whenever a civil action is filed in [this] court... and
[this] court finds that there is a want of jurisdiction, the
court shall, if it is in the interest ofjustice, transfer such
action or appeal to any other such court... in which the
action or appeal could have been brought at the time it
was filed or noticed, and the action or appeal shall
proceed as if it had been filed in or noticed for the court
to which it is transferred on the date upon which it was
actually filed in or noticed for the court from which it is
transferred.
Id. In the court’s view, transfer would not serve the
interests of justice in this case. Plaintiffs have already
availed themselves of an appeal to the Eighth Circuit of
their district court case, and subsequently made a
conscious decision to abandon that effort and proceed in
End of Document

this court. See ECF No. 1 at 12; see also United States v.
Mooney, et al. Case No. 19-1533 (8th Circuit). The court
will not use its transfer power to compensate for
plaintiffs’ decision.

IV. Conclusion
The complaint in this case must be dismissed on
jurisdictional grounds. As such, plaintiffs’ motion for an
expedited stay of judgment and stay of eviction, ECF No.
4, is DENIED as moot; plaintiffs’ motion for an
extension of time to file their reply in support of the
motion for an expedited stay of judgment, ECF No. 7, is
DENIED as moot; and plaintiffs expedited motion on
standing, ECF No. 8, is DENIED as moot.
The clerk’s office is directed to ENTER final judgment
for defendant DISMISSING plaintiffs’ complaint for lack
of subject matter jurisdiction, without prejudice.
IT IS SO ORDERED.
All Citations
Not Reported in Fed.Cl., 2019 WL 4052488, 124
A.F.T.R.2d 2019-5641

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WE5TLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

070a
APPENDIX N
Mooney v. United States, Not Reported in Fed.Cl. (2019)

2019 WL 4861104
Only the Westlaw citation is currently available.
UNPUBLISHED
United States Court of Federal Claims.

William Joseph MOONEY and Joni
Therese Mooney, Plaintiffs,
v.
The UNITED STATES, Defendant.
No. 19-987C
(Filed: October 2, 2019)

Motion for Reconsideration.

ORDER
PATRICIA E. CAMPBELL-SMITH, Judge
' *1 Plaintiffs William Joseph Mooney and Joni Therese
Mooney filed a complaint with the court on July 9, 2019.
See ECF No. 1. On August 27, 2019, the court dismissed
the complaint sua sponte for lack of jurisdiction. See ECF
No. 10. On September 23, 2019, plaintiffs moved the
court to reconsider its decision dismissing the complaint
pursuant to Rule 59 of the Rules of the United States
Court of Federal Claims (RCFC). See ECF No. 12.

I. Background1
1
The court explained the relevant facts underlying
plaintiffs’ complaint in its order dismissing the case.
See ECF No, 10. In order to focus on plaintiffs’
presently pending motion, those facts are not repeated
here.

The court previously concluded that it lacked jurisdiction
and dismissed plaintiffs’ complaint for three reasons.
First, the court concluded that “the gravamen of [the]
complaint is plaintiffs’ dissatisfaction with the
proceedings in the United States District Court for the

District of Minnesota, The Tucker Act, however, does not
give this court jurisdiction to consider the merits of a
collateral attack on those proceedings.” ECF No. 10 at 3
(citing inter alia 28 U.S.C. § 1491(a); Shinnecock Indian
Nation v. United States. 782 F.3d 1345, 1352 (Fed. Cir.
2015) (“Binding precedent establishes that the Court of
Federal Claims has no jurisdiction to review the merits of
a decision rendered by a federal district court.”). Second,
the court held that it lacked jurisdiction to consider any
constitutional violations allegedly committed by federal
officials. See id. at 4 (citing Brown v. United States. 105
F.3d 621, 624 (Fed. Cir. 1997)). Finally, the court found
that to the extent plaintiffs’ intended to allege claims
sounding in tort, such as fraud, jurisdiction was likewise
lacking. Id. at 4 (citing 28 U.S.C. § 1491(a)(1) (limiting
this court’s jurisdiction to “cases not sounding in tort”);
Kant v. United States. 123 Fed. Cl. 614, 616-17 (2015)
(declining to exercise jurisdiction over a fraud claim
because it sounded in tort); Brown. 105 F.3d at 623-24),
The court also considered whether transferring the case to
a court with jurisdiction would appropriate. Because
plaintiffs “have already availed themselves of an appeal to
the Eighth Circuit of their district court case, and
subsequently made a conscious decision to abandon that
effort and proceed in this court,” the court decided that it
would “not use its transfer power to compensate for
plaintiffs’ decision.” ECF No. 10 at 4-5.
Plaintiffs now move for reconsideration of this decision.
See ECF No. 12.

II. Legal Standards

A. Pro Se Litigants
The court acknowledges that pro se plaintiffs are not
expected to frame issues with the precision of a common
law pleading. Roche v. U.S. Postal Serv.. 828 F.2d 1555,
1558 (Fed. Cir. 1987). Therefore, plaintiffs’ motion has
been reviewed carefully to ascertain whether, given the
most favorable reading, it supports the requested relief.

B. Motion for Reconsideration
Rule 59(a) governs a motion for reconsideration, and
provides that rehearing or reconsideration may be
granted: “(A) for any reason for which a new trial has
heretofore been granted in an action at law in federal

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

071a
court; (B) for any reason for which a rehearing has
heretofore been granted in a suit in equity in federal court;
or (C) upon the showing of satisfactory evidence,
cumulative or otherwise, that any fraud, wrong, or
injustice has been done to the United States.” RCFC
59(a)(1).

effort to address the requirements of RCFC 59, plaintiffs
do assert that they “have evidence based on the Common
Law Rules of New Evidence,” and proceed to quote
passages addressing this “doctrine” at some length. See
ECF No. 12 at 22-23. The court was, however, unable to
identify any new evidence in plaintiffs’ filing.

*2 The court, “in its discretion, ‘may grant a motion for
reconsideration when there has been an intervening
change in the controlling law, newly discovered evidence,
or a need to correct clear factual or legal error or prevent
manifest injustice.’ ” Biery v. United States. 818 F.3d
704, 711 (Fed. Cir. 2016) (quoting Young v. United
States. 94 Fed. Cl. 671, 674 (2010)). Motions for
reconsideration must be supported “by a showing of
extraordinary circumstances which justify relief.”
Caldwell v. United States. 391 F.3d 1226, 1235 (Fed. Cir.
2004) (quoting Fm-Con Constr. Coro, v. United States. 44
Fed. Cl. 298, 300 (1999), affd, 250 F.3d 762 (2000)).
Such a motion, however, “may not be used to relitigate
old matters, or to raise arguments or present evidence that
could have been raised prior to the entry of judgment.”
Exxon Shipping Co. v. Baker. 554 U.S. 471, 485 n.5
(2008) (quoting 11 Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 2810.1 (2d ed.
1995)). In addition, “a motion for reconsideration is not
intended ... to give an ‘unhappy litigant an additional
chance to sway’ the court.” Matthews v. United States. 73
Fed. Cl. 524, 525 (2006) (quoting Froudi v. United States.
22 Cl. Ct. 290, 300(1991)).

Plaintiffs have failed to demonstrate an intervening
change in controlling law, newly discovered evidence, or
any clear error in the court’s decision dismissing the
complaint. See Biery, 818 F.3d 704, 711. It appears,
instead, that this motion falls into the prohibited category
of filings in which an unhappy litigant makes an
additional attempt to sway the court. See Matthews. 73
Fed. Cl. at 525.

III. Analysis
Plaintiffs’ motion for reconsideration, together with
attachments, exceeds 600 pages. The brief in support of
the motion is not a model of clarity, but can be fairly
described in two parts—the first, an argument about the
nature and authority of federal courts; and the second, an
attempt to reargue the merits of their underlying claims,
which the court has previously dismissed. In an apparent
End of Document

IV. Conclusion
Accordingly, plaintiffs’ motion for reconsideration, ECF
No. 12, is DENIED.
On September 26, 2019, the clerk’s office received a
“Notice of Lis Pendens Filing on the Property of the
Mooneys.” The filing was defective in several respects,
but because the court has no jurisdiction in this matter, the
clerk’s office is directed to RETURN plaintiffs
September 26, 2019 submission to plaintiffs, UNFILED.
Without further order, the clerk’s office is directed to
RETURN any future submissions received by plaintiff
that are not in compliance with this court’s rules to
plaintiff, UNFILED.
IT IS SO ORDERED.
All Citations
Not Reported in Fed.Cl., 2019 WL 4861104

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTIAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

076a
APPENDIX P
Mooney v. United States, 829 Fed.Appx. 520 (2020)
126 A.F.T.R.2d 2020-6377

829 Fed.Appx. 520
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. Fed. Cir.
Rule 32.1.
United States Court of Appeals, Federal Circuit.

William Joseph MOONEY, Joni Therese
Mooney, Plaintiffs-Appellants
v.
UNITED STATES, Defendant-Appellee

[2]

United States#»»Paities
The Tucker Act grants the Court of Federal
Claims jurisdiction over suits against the United
States, not against individual federal officials.
28 U.S.CA. § 1491(a)(1).

2020-1075
Decided: October 7,2020

Synopsis
Background: Taxpayers brought action against United
States challenging prior District Court action in which the
United States succeeded in reducing taxpayers’ federal
tax and penalty assessments to judgment and enforcing
federal tax liens. The Court of Federal Claims, Patricia
Elaine Campbell-Smith, J., dismissed taxpayers’
complaint for lack of subject matter jurisdiction.

*521 Appeal from the United States Court of Federal
Claims in No. l:19-cv-00987-PEC, Judge Patricia E.
Campbell-Smith.
Attorneys and Law Firms
William Joseph Mooney, Joni Therese Mooney, Little
Falls, MN, pro se.
Richard L. Parker, Tax Division, United States
Department of Justice, Washington, DC, for
defendant-appellee. Also represented by Jacob Earl
Christensen, Richard E. Zuckennan.
Before Lourie, Hughes, and Stoll, Circuit Judges.

[Holding:] The Court of Appeals held that the Court of
Federal Claims lacks jurisdiction to review the merits of a
decision rendered by a federal district court.

Opinion
Per Curiam.

Affirmed.

West Headnotes (2)
[1]

Federal Courts#=Claims against United States
in general
United States<8=*In general; establishment and
jurisdiction

William Mooney and his wife, Joni Mooney (“the
Mooneys”), appeal from a decision of the United States
Court of Federal Claims (the “Claims Court”) dismissing
their complaint against the United States for lack of
subject matter jurisdiction, Mooney v. United States, No.
19-987C, 2019 WL 4052488 (Fed. Cl. Aug. 27, 2019)
(“Decision /”), and denying their motion for
reconsideration. Mooney v. United States, No. 19-987C,
2019 WL 4861104 (Fed. Cl. Oct. 2, 2019) (“Decision 77”).
Because the Claims Court did not err in its dismissal and
subsequent denial of reconsideration, we affirm.

The Court of Federal Claims lacks jurisdiction
to review the merits of a decision rendered by a
federal district court. 28 U.S.C.A. § 1491(a)(1).
WESTLAW

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

077a
Mooney v. United States, 829 Fed.Appx. 520 (2020)
126 A.F.T.R.2d 2020-6377

Background
In July 2016, the United States filed suit against the
Mooneys in the United States District Court for the
District of Minnesota, seeking “to reduce federal tax and
penalty assessments to judgment and enforce federal tax
liens” against the Mooneys’ property. United States v.
Mooney, No. 16-cv-02547 (D. Minn. July 28, 2016), ECF
No. 1 at 1. The district court ruled against the Mooneys
and authorized the sale of their personal residence to
satisfy their outstanding tax liabilities. United States v.
Mooney, No. 16-CV-02547, 2018 WL 2215521, at *7 (D.
Minn. May 15, 2018). In March 2019, the Mooneys
appealed to the United States Court of Appeals for the
Eighth Circuit but withdrew their appeal shortly
thereafter. United States v. Mooney, No. 19-1533, 2019
WL 4296301 (8th Cir. May 15, 2019) (granting motion to
dismiss).
On July 9, 2019, the Mooneys filed a complaint against
the United States in the Claims Court. Appx. 32. The
Mooneys appear to have alleged that the district judge and
magistrate judge misled them and denied them access to
the courts by falsely claiming that the District Court of
Minnesota *522 was a genuine Article III court, when it
was in fact an Article I Section 8 court or “faux” court
that had no jurisdiction to authorize the sale of their real
property. Id. at 38-44. In addition, the Mooneys accused
the district judge and the government’s attorney of
misconduct, including the creation of false documents and
spoliation of evidence. Id. at 43^14. As relief, the
Mooneys requested abrogation of the district court’s order
authorizing the sale of their real property and a “real
[tjrial.” Id. at 45.
The Claims Court dismissed the Mooneys’ case, sua
sponte, for lack of subject matter jurisdiction. Decision I,
2019 WL 4052488, at *3. The court explained that
pursuant to the Tucker Act, it had jurisdiction only over
specified categories of complaints and none of the
Mooneys’ stated claims fell within the confines of the
Act. First, the court determined that the gravamen of the
Mooneys’ complaint was their dissatisfaction regarding
the proceedings in the District Court of Minnesota, but the
Tucker Act does not confer jurisdiction upon the Claims
Court to consider the merits of a collateral attack on a
district court decision. Id. at *2. Second, to the extent the
Mooneys intended to allege that the actions of the district
judge, magistrate judge, or government attorney “violated
their constitutional rights,” the court concluded that it had
no jurisdiction to review complaints concerning violations
of plaintiffs’ civil rights by federal officials. Id. at *3.
Third, the court held that it could not consider the
Mooneys’ fraud claims because it did not have
jurisdiction over any claims sounding in tort. Id. The
WESTLAW

Claims Court further denied the Mooneys’ motion for
reconsideration pursuant to Rule 59 of the Rules of the
United States Court of Federal Claims (“RCFC”).
Decision IT, 2019 WL 4861104, at *2.
The Mooneys appealed the dismissal.
jurisdiction under 28 U.S.C. § 1295(a)(3).

We

have

Discussion
We review a dismissal by the Claims Court for lack of
jurisdiction de novo. Tex. Peanut Farmers v. United
States, 409 F.3d 1370, 1372 (Fed. Cir. 2005) (citing
Frazer v. United States, 288 F.3d 1347, 1351 (Fed. Cir.
2002)). We review the Claims Court’s denial of a motion
for reconsideration under Rule 59 for an abuse of
discretion. Renda Marine, Inc. v. United States, 509 F.3d
1372, 1379 (Fed. Cir. 2007).
On appeal, the Mooneys assert, among other allegations
previously raised in the Claims Court, that the District
Court of Minnesota is not a true Article III federal court
and that their complaint was not a “collateral attack”
because the district court’s judgment was a “legal
nullity.” Appellant Br. 35-38 (quoting United States v.
Bigford, 365 F.3d 859, 865 (10th Cir. 2004)). In addition,
the Mooneys assert that the Claims Court had jurisdiction
over their claim pursuant to 28 U.S.C. § 2515(a), which
states that “[t]he United States Court of Federal Claims
may grant a plaintiff a new trial on any ground established
by rules of common law or equity applicable as between
private parties.” Id. at 42^-3. With regard to the Claims
Court’s denial of their motion for reconsideration, the
Mooneys argue that the court “discounted]” the new
evidence they raised in their motion for reconsideration,
including a citation of two “[o]n-[p]oint cases,” decided
decades before they filed their complaint in the Claims
Court. Id. at 43-44.
The government responds that the Mooneys’ brief largely
“rehash[es]” the collateral attacks against the district
court. Appellee Br. 20-21. The government further *523
asserts that the Claims Court did not have jurisdiction
over the Mooneys’ complaint pursuant to § 2515(a)
because that statute “applies to requests for a new trial in
cases originating in the Claims Court and over which it
has jurisdiction under the Tucker Act, not in cases
decided by other courts.” Id. at 22-23. Additionally, the
government states that the Claims Court did not abuse its
discretion in denying the Mooneys’ motion for
reconsideration because the Mooneys’ citation of
decades-old cases did not constitute newly discovered

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

078a
Mooney v. United States, 829 Fed.Appx. 520 (2020)
126 A.F.T.R.2d 2020-6377

evidence. Id. at 26-27.
|!|We agree with the government that the Claims Court
correctly dismissed the Mooneys’ case for lack of subject
matter jurisdiction and did not abuse its discretion in
denying the Mooneys’ motion for reconsideration. The
Mooneys’ complaint, which largely consisted of
criticisms regarding mistakes made by the district court
and allegations of misdeeds by various federal officials,
was, in essence, a collateral attack on the district court
proceedings. Accordingly, the Claims Court correctly
held that it did not have jurisdiction to review the
Mooneys’ case. See 28 U.S.C. § 1491(a)(1); Petro-Hunt,
L.L.C.. v. United States, 862 F.3d 1370, 1384-85 (Fed.
Cir. 2017) (“[T]he Court of Federal Claims lacks
jurisdiction to review the merits of a decision rendered by
a federal district court.”) (citing Shinnecock Indian Nation
v. United Stales, 782 F.3d 1345, 1352 (Fed. Cir. 2015)).
Nor did the Claims Court have jurisdiction under 28
U.S.C. § 2515(a), which applies to requests for a new trial
in cases originating in the Claims Court, rather than
district courts. To hold otherwise would allow plaintiffs to
relitigate their claims in the Claims Court if they were
dissatisfied with the district court proceedings. Flowever,
the Mooneys already appealed to the Eighth Circuit,
which was the proper route of appeal, but they voluntarily
withdrew their appeal.
12|To the extent that the Mooneys’ complaint can be
characterized as alleging violations of their constitutional
rights by federal officials or sounding in tort, we further
hold that the Claims Court correctly held that it lacked
jurisdiction over those claims. The court’s jurisdiction
under the Tucker Act does not reach those types of
claims. See Brown v. United States. 105 F.3d 621, 624
(Fed. Cir. 1997) (“The Tucker Act grants the Court of
End of Document

WE5TLAW

Federal Claims jurisdiction over suits against the United
States, not against individual federal officials.”) (citing 28
U.S.C. § 1491(a)); Rick's Mushroom Serv., Inc. v. United
States.. 521 F.3d 1338, 1343 (Fed. Cir. 2008) (“The plain
language of the Tucker Act excludes from the Court of
Federal Claims jurisdiction claims sounding in tort.”).
Finally, we agree that the Claims Court did not abuse its
discretion in denying the Mooneys’ motion for
reconsideration. The Mooneys’ citation of cases decided
decades before their complaint was filed in the Claims
Court is not “newly discovered” evidence as required by
RCFC 59. See Howard Hess Dental Labs. Inc. v. Dentsplv
Int’l, Inc., 602 F.3d 237, 252 (3d Cir. 2010) (“[N]ew
evidence in this context means evidence that a party could
not earlier submit to the court because that evidence was
not previously available”); see also Biery v. United States,
818 F.3d 704, 711 (Fed. Cir. 2016).

Conclusion
We have considered the Mooneys’ remaining arguments
but find them unpersuasive. For the foregoing reasons, we
affirm the Claims Court’s dismissal of this case and denial
of the Mooneys’ motion for reconsideration.
AFFIRMED
All Citations
829 Fed.Appx. 520, 126 A.F.T.R.2d 2020-6377

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Case: 20-1075

Document: 61

Page: 1

Filed: 12/30/2020

NOTE: This order is nonprecedential.

®mtet> States Court of Appeals
for tfje jfeberal Circuit
WILLIAM JOSEPH MOONEY, JONI THERESE
MOONEY,
Plaintiffs-Appellants
v.
UNITED STATES,
Defendant-Appellee
2020-1075
Appeal from the United States Court of Federal Claims
in No. l:19-cv-00987-PEC, Judge Patricia E. CampbellSmith.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Appellants Joni Therese Mooney and William Joseph
Mooney filed a petition for rehearing en banc. The petition

Case: 20-1075

Document: 61

Page: 2

Filed: 12/30/2020

MOONEY V. UNITED STATES

2

was first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for re­
hearing en banc was referred to the circuit judges who are
in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on January 6, 2021.
For the Court
December 30. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Additional material
from this filing is
available in the
Clerk's Office.

